HHS/OIG, Audit - "Audit of Selected States' Medicaid Payments for
Services Claimed To Have Been Provided to Deceased Beneficiaries,"
(A-05-05-00030)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Selected States' Medicaid Payments for
Services Claimed To Have Been Provided to Deceased Beneficiaries," (A-05-05-00030)
September 26, 2006
Complete Text of Report is available in PDF format (671 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to (1) consolidate the results of our audits of 10 States’ Medicaid payments for services claimed to have been provided to deceased beneficiaries and (2) determine why the States did not identify and recover the overpayments. In 8 of the 10 States audited, providers received an estimated total of $27.3 million ($15.1 million Federal share) in Medicaid overpayments, which the States never recovered, for services claimed to have been provided after beneficiaries’ deaths. Prepayment screening by some States did not successfully identify the overpayments for deceased beneficiaries because the States did not use all available death information and because their payment systems had data entry, matching, and processing problems. Furthermore, postpayment screening did not identify all overpayments associated with deceased beneficiaries. We recommended that CMS: (1) work with States to ensure that they use all available data sources to identify deceased beneficiaries, match those data against paid claims files, and recover identified overpayments; and (2) encourage States to establish postpayment reviews to mitigate the effect of delays in receiving data regarding beneficiaries’ dates of death. CMS concurred with our recommendations.